March 8, 2001
Audit Report No. 01-008


Audit of Claims Made to the Credit
Enhancement Reserve Funds for
Securitization Transactions 1992-03
and 1992-04
Federal Deposit Insurance Corporation                                                                      Office of Audits
Washington, D.C. 20434                                                                         Office of Inspector General




   DATE:            March 8, 2001


   TO:              Mitchell Glassman, Director
                    Division of Resolutions and Receiverships



   FROM:            David H. Loewenstein
                    Assistant Inspector General


   SUBJECT:         Audit of Claims Made to the Credit Enhancement Reserve Funds for Securitization
                    Transactions 1992-03 and 1992-04
                    (Audit Report No. 01-008)


   The Office of Inspector General (OIG) has completed an audit of claims made to the credit
   enhancement reserve funds for single-family residential (SFR) loan securitization transactions 1992-03
                                                             1
   and 1992-04. The Resolution Trust Corporation (RTC) began issuing mortgage-backed securities in
   June 1991. The RTC and the Federal Deposit Insurance Corporation (FDIC) issued 74 mortgage-
   backed security transactions (securitizations) with original unpaid principal balances (i.e., book value)
   of approximately $43.8 billion. Of these 74 securitizations, 44 were collateralized by SFR mortgage
   loans with a book value of $25.3 billion. As of November 14, 2000, there were 15 SFR securitizations
   remaining with a collateral balance that totaled $1.2 billion.


   BACKGROUND

   The RTC used securitization as a method to sell loans from failed institutions. To obtain a high credit
   rating, the RTC created reserve funds for each securitization. The purpose of the reserve funds is to
   provide investors with a limited amount of protection against credit risks in the event that borrowers
   default or fail to make timely remittances on loans included in the securitization. Upon liquidation of
   a defaulted loan, the servicer prepares an officer's certificate that reports the realized loss or gain from
   liquidation. Upon receipt of the officer's certificate, the trustee releases the amount of the realized loss
   or deposits the amount of the realized gain from or to the reserve funds. Any remaining balance in the
   reserve funds returns to the FDIC after the securitization transaction terminates. Therefore, claims to
   the reserve funds directly affect the value of the FDIC's residual interest in the reserve funds.

   1
    The RTC’s legislatively mandated sunset date was December 31, 1995. Responsibility for all RTC-related work as of that
   date was transferred to the Federal Deposit Insurance Corporation in accordance with the RTC Completion Act.
During 1999 and 2000, the OIG performed audits of all nine securitization transactions serviced by
Ryland Mortgage Company (Ryland). Ryland charged the reserve funds $172 million in net realized
losses. The OIG issued nine reports during 2000 with total combined questioned costs of $7.1 million.
On May 16, 1998, PNC Mortgage (PNC) acquired the servicing rights for eight of the nine
securitizations previously serviced by Ryland that had not terminated. Because of the numerous errors
disclosed in the Ryland audit reports and discussions with management from the FDIC Division of
Resolutions and Receiverships (DRR) Mortgage Backed Securities Administration (MBS), the OIG
decided to perform an audit of Ryland securitizations that transferred to PNC.

For our audit of PNC, we selected two of the eight acquired securitizations, 1992-03 and 1992-04.
These two securitizations accounted for 55 percent of the net realized losses charged to the reserve
funds by PNC. As discussed earlier, in September 2000, the OIG issued two audit reports on these two
securitizations (for 1992-03, Audit Report No. 00-044 and for 1992-04, Audit Report No. 00-041) that
were serviced by Ryland.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the claims on the officer’s certificates submitted to
the reserve funds for the sample items tested were allowable and adequately supported by
documentation. To accomplish this objective, we reviewed a judgmental sample of the officer’s
certificates for securitization transactions 1992-03 and 1992-04 for the period June 1998 through June
2000. During this period, PNC claimed net realized losses totaling $6.0 million ($3.5 million for 1992-
03 and $2.5 million for 1992-04). We initially selected six loans for testing with realized losses
totaling $633,922 ($304,428 for 1992-03 and $329,494 for 1992-04). Based on results of the survey,
we expanded our sample to include nine additional loans with net realized losses totaling $518,279
($153,181 for 1992-03 and $365,098 for 1992-04). Therefore, the entire sample size totaled 15 loans
with net realized losses totaling $1.15 million, or 19 percent of the $6.0 million in realized losses
charged to the reserve funds for both securitizations.

During our audit of the sampled loan files, we identified instances when PNC claimed principal and
interest advances also claimed earlier by Ryland. We performed additional procedures to identify any
other duplicate principal and interest advances for non-sampled loans for all transactions transferred to
PNC from Ryland. We presented the results of this review to DRR MBS in our report entitled
Securitization Transactions Serviced by PNC Mortgage, Audit of Duplicate Principal and Interest
Advances (Audit Report No. 01-009).

To accomplish our audit objective, we interviewed personnel from DRR MBS, PNC, and MGIC
Investor Services Corporation (MGIC) of Milwaukee, Wisconsin. To fulfill part of its oversight
function, DRR MBS hired MGIC to perform “reasonableness” reviews of realized losses submitted by
loan servicers of the SFR securitizations. In addition, we performed the following procedures for each
sampled loan:

   !   reviewed all available settlement statements and other disposition documents to confirm the
       amount of the net proceeds;

   !   reviewed loan histories and amortization schedules, where available, to verify the proper
       amount of principal and interest advances and the remaining scheduled principal balances;
                                                  2
   !   reviewed the adequacy of the documentation supporting the corporate advances charged to the
       reserve fund;

   !   searched for unrecorded income and overstated advances;

   !   recalculated the amortization of the sampled loans to verify that the principal and interest
       advances that PNC charged to the reserve fund conformed to the terms of the note and that the
       proper interest rate was used in the calculation;

   !   traced the interest rate used to the appropriate index to verify that the interest rate used by PNC
       was correct;

   !   confirmed that servicing fees were excluded from interest advances;

   !   verified the default and liquidation dates using evidence in the loan files and verified that PNC
       ceased principal and interest advances in the month of liquidation; and

   !   recalculated the unused insurance premium refunds that did not appear to have been credited to
       the reserve fund.

We performed our work at PNC’s office in Vernon Hills, IL, and the FDIC’s offices in Washington,
D.C. PNC coordinated with Ryland to provide us with documentation from Ryland’s servicing period.
We conducted the audit in accordance with the standards applicable to financial-related audits
contained in Government Auditing Standards issued by the Comptroller General of the United States.
We began our review on July 24, 2000 and completed the fieldwork on December 8, 2000.

We did not evaluate PNC’s systems of internal controls because we concluded that the audit objective
would be met more efficiently by conducting substantive tests rather than by placing reliance on PNC’s
systems of internal control.


RESULTS OF AUDIT

We found that $441,764 of the $1.15 million sampled, or 38 percent of the claims PNC submitted for
the 15 loans, were either unallowable under the terms of the Pooling and Servicing Agreement (PSA)
or unsupported. However, as discussed earlier, PNC had taken over servicing from Ryland. We
determined that $187,248 of the $441,764 in questioned costs related to previous errors by Ryland.
We also found that one loan, for which we questioned $165,644, should not have been included in
securitization 1992-04 because it had been satisfied by the borrower. We questioned the costs
associated with this loan because the costs should not have been charged to the reserve fund; however,
PNC may be entitled to submit a claim to the representations and warranties fund. Finally, $45,879
questioned related to PNC claiming principal and interest advances that were also claimed by Ryland.
Although we believe PNC is responsible for filing the duplicate claims, we do not believe that this
would have happened had PNC not taken over servicing from Ryland.



                                                    3
Therefore, we believe that $398,771, or 90 percent, of the questioned costs we identified are due to
poor servicing by Ryland or related to a loan that should not have been included in the securitization.
The remaining $42,993, or 10 percent, of questioned costs related to PNC’s servicing of the loans.
These questioned costs represent 4 percent of the total sampled items. Accordingly, we conclude that
charges to the reserve fund by PNC were generally allowable and supported except as noted.

Table 1 presents an overall summary of the results of our testing of the 15 sample loans.

Table 1: Summary of Total Questioned Costs


Description                         Dollars

Unallowable Costs
                                        $401,309
Unsupported Costs
                                          40,455
Total
                                        $441,764
Total Realized Losses
Tested                                $1,152,201
Source: OIG analysis.



UNALLOWABLE COSTS

Our review disclosed unallowable costs totaling $401,309, which represents 35 percent of the
$1.15 million in realized losses sampled for the period of June 1998 through June 2000. More
significantly, unallowable costs represent 91 percent of all questioned costs identified during our
review. These questioned costs consist of charges either not allowed under the terms of the PSA or
incurred by the servicer due to the servicer’s own error. We have categorized unallowable costs into
eight categories for the purposes of this report:

   !    Fire Loss
   !    Potential Representations and Warranty Claims
   !    Principal and Interest Advances
   !    Duplicate Principal and Interest Advances
   !    Liquidation Expenses
   !    Corporate Advances
   !    Miscellaneous Unallowable Costs
   !    Escrow Expenses

Table 2 summarizes the results of unallowable costs by category.




                                                   4
Table 2: Summary of Unallowable Costs
                                  Number of Loans with           Amount of Unallowable
Category                                Errors                          Costs
Fire Loss                                    1                                     $141,230

Potential Representations
                                             1                                      124,245
and Warranty Claims

Principal and Interest
                                             13                                      64,721
Advances

Duplicate Principal and
                                             8                                       45,879
Interest Advances

Liquidation Expenses                         7                                       10,294

Corporate Advances                           8                                         9,344

Miscellaneous Unallowable
                                             8                                         4,182
Costs

Escrow Expenses                              3                                         1,414

Total                                                                              $401,309
Source: OIG analysis.



Fire Loss

We questioned PNC’s claim of $141,230 related to one loan due to servicer error on the part of
Ryland. Specifically, Ryland released two-thirds of the fire insurance proceeds to the borrower before
the borrower rebuilt the dwelling. The loan file indicated that the borrower subsequently
“disappeared.” PNC eventually liquidated the remaining collateral, the lot, and submitted a $141,230
claim for the loss to the reserve. DRR’s oversight contractor, MGIC, noted that the fire loss should not
have resulted in a loss to the reserve, but rather that the property should have been rebuilt. We concur
with MGIC and believe that if Ryland had properly disbursed the insurance proceeds, the loss to the
reserve fund would not have occurred. PNC has submitted a claim to Ryland for the entire amount of
the loss; however, PNC has not yet reimbursed the reserve for the loss it claimed. Therefore, until the
reserve fund is made whole, we question the entire loss of $141,230 as avoidable.




                                                   5
Potential Representations and Warranty Claims

We identified one loan for which PNC submitted a realized loss claim after determining that the
original loan had been forgiven by the failed institution. Therefore, the loan was ineligible for
inclusion in the securitization. The amount questioned, $124,245, represents the portion of the
realized loss associated with the unpaid principal balance transferred into the securitization. Corporate
advances made by PNC and principal and interest advances made by both Ryland and PNC are
questioned below under the principal and interest advance section of this report. While PNC is
responsible for reimbursing the reserve fund for the questioned costs associated with this loan, it may
be eligible to file a representations and warranty claim for this portion of the questioned costs.


Principal and Interest Advances

We questioned $64,721of principal and interest advances for 13 of the sampled loans. One loan alone
constituted $27,329 of the total questioned costs. In this instance, PNC claimed $27,329 of interest
advances for a loan that was satisfied by the borrower. Two other loans constituted $19,526 of the
total questioned costs. For these two loans, PNC claimed principal and interest payments from the
reserve account for balloon payment loans. In each of these cases, we found that the borrowers
defaulted on the balloon payment date, but the servicer continued to advance principal and interest
payments to the trust, thus incurring additional interest expense. The PSA requires that the servicer
advance the monthly payment due on defaulted loans. The balloon payment is considered a monthly
payment under the PSA. We therefore believe that the servicer should have advanced the balloon
payment and avoided the additional interest expense. Another loan constituted $13,810 of the
questioned costs. For this loan, PNC claimed principal and interest advances for several months
following the liquidation of the property. The remaining $4,056 related to minor rate differences and
excess servicing fees claimed by PNC for principal and interest advances. The PSA required that the
servicer make timely and correct interest adjustments. Additionally, the PSA specifically prohibited
the servicer from collecting servicing fees on defaulted loans.


Duplicate Principal and Interest Advances

We identified $45,879 of questioned costs related to eight of the sampled loans. While it serviced the
questioned loans, Ryland deemed these eight loans “non recoverable” and submitted claims against the
reserve accounts for principal and interest advances prior to liquidating the loans. We found that when
PNC subsequently liquidated the loans, it claimed principal and interest amounts for the same period
as Ryland resulting in the duplicate payments.

FDIC personnel explicitly warned PNC of the possibility of duplicate advances being claimed in its
May 20, 1998 letter to PNC counsel. However, we found that for the sampled loans PNC initially
claimed $91,275 in duplicate interest. PNC subsequently reimbursed the FDIC $40,242 of this amount
and the OIG questioned $5,154 of it in OIG Audit Report No. 00-044. Therefore, we question the
remaining $45,879 of duplicate principal and interest payments for these loans.




                                                    6
We have also reviewed the remaining loans in these transactions as well as the other securitization
transactions serviced by PNC for duplicate payments. We issued a separate report entitled
Securitization Transactions Serviced by PNC Mortgage: Audit of Duplicate Principal and Interest
Advances (Audit Report No. 01-009).


Liquidation Expenses

We identified $10,294 of questioned liquidation expenses for seven of the sampled loans. The
questioned liquidation expenses were primarily related to avoidable fees for interest and penalties on
taxes, excessive commission charges, and avoidable homeowners’ association late fees. The PSA
specifically required that the servicer advance taxes and assessments in the event the borrower failed to
make these payments to avoid the imposition of liens. Additionally, the servicer had an inherent duty
to minimize the loss on the disposition of foreclosed property. Finally, we considered sales
commissions of more than 6 percent to be questioned costs unless there was a documented, acceptable
reason in the loan file, like a stated dollar amount for a low valued property.


Corporate Advances

We identified $9,344 of questioned corporate advances for eight sampled loans. The majority of these
questioned costs that were paid through the servicers’ corporate accounts related to one loan for which
we found that the servicer had expended $6,721 to maintain a property for which the mortgage had
been previously satisfied. The remaining $2,623 related primarily to duplicate payments of invoices
and other avoidable fees paid through PNC’s corporate account.


Miscellaneous Unallowable Costs

We identified $4,182 in miscellaneous unallowable costs related to eight loans. This amount primarily
consisted of unrefunded hazard insurance premiums. The PSA required the servicer to minimize the
losses to the reserve, and PNC should have sought these refunds.


Escrow Expenses

We identified $1,414 of questioned escrow expenses for three of the sampled loans. The questioned
costs relate to two tax penalties paid through escrow and a duplicate payment of an attorney invoice
paid through escrow. As stated earlier, the PSA clearly required the servicer to make timely payments
of taxes. Additionally, the PSA required that the loss to the reserve fund be minimized.




                                                   7
Recommendation

We recommend that the Manager, MBS, DRR:

(1)       Disallow the unallowable costs of $401,309 as detailed below:

          !   Fire Loss $141,230
          !   Potential Representations and Warranty Claims $124,245
          !   Principal and Interest Advances $64,721
          !   Duplicate Principal and Interest Advances $45,879
          !   Liquidation Expenses $10,294
          !   Corporate Advances $9,344
          !   Miscellaneous Unallowable Costs $4,182
          !   Escrow Expenses $1,414


UNSUPPORTED COSTS

Our audit disclosed $40,455 of unsupported costs, which represented 3 percent of the realized losses
that we sampled for the period of June 1998 through June 2000. These results suggest that PNC was
maintaining adequate support for most of the escrow expenses, corporate advances, and liquidation
expenses charged to the reserve fund for the two securitization transactions. Nevertheless, the servicer
is required to maintain adequate supporting documentation for all realized losses charged to the reserve
fund.

Section 3.04 of the PSA states: “… the Servicer shall keep and maintain separate accounting records
for each Mortgage Loan for the purpose of justifying any withdrawal from the Certificate Account
(emphasis added)….” The Certificate Account is a custodial account established and maintained
by the servicer on behalf of the securitization. The PSA also requires the servicer to retain this
documentation for its most recent 5 fiscal years.

We categorized the unsupported costs into three categories for the purposes of this report:

      !   Escrow Expenses
      !   Corporate Advances
      !   Liquidation Expenses


Table 3 summarizes the unsupported questioned costs by category.




                                                    8
Table 3: Summary of Unsupported Costs

                                      Number of Loans with               Amount of Unsupported
    Category                                Errors                               Costs
    Escrow Expenses                                 9                                          $26,367

    Corporate Advances                              7                                             8,330

    Liquidation Expenses                            3                                             5,758

    Total                                                                                      $40,455
Source: OIG analysis.



Escrow Expenses

We identified $26,367 of unsupported escrow expenses for nine of the sampled loans. These
unsupported costs related to attorney fees, foreclosure costs, property inspections, and other expenses
paid by the servicer before liquidation. A majority of these expenses were paid by Ryland from the
escrow account. We considered any escrow disbursement to be supported if there was (1) a detailed
        2
invoice from the vendor who provided the service or utility and (2) evidence of actual payment. If
one or the other was missing from the loan file, then we considered the expense to be an unsupported
cost. Acceptable evidence of payment included copies of checks that agreed to amounts claimed or
subsequent invoices that identified prior balances as paid.


Corporate Advances

We identified $8,330 of unsupported corporate advances. For seven of the sampled loans, we could
not locate sufficient evidence in the file (i.e., invoice and evidence of payment) to substantiate the
corporate advances. Examples of corporate advances were property management bills, attorney fees,
and utilities.


Liquidation Expenses

We identified $5,758 of unsupported liquidation expenses. For three of the sampled loans, we could
not locate sufficient evidence in the file (i.e., invoice and evidence of payment) to substantiate the
deductions from sales proceeds on the settlement sheet. Examples of liquidation expenses were sewer
fees, repairs, home warranty, and other additional settlement charges deducted from proceeds on the
settlement sheet.


2
  For example, property managers would often pay expenses and claim reimbursement from PNC/Ryland by submitting an
invoice that itemized these expenses. We considered these property management expenses to be unsupported if the
underlying detailed invoices from the actual third-party vendors were not available to adequately support the property
management invoices.
                                                           9
Recommendation

We recommend that the Manager, MBS, DRR:

(2)    Disallow the unsupported costs of $40,455 as detailed below:

       !   Escrow Expenses $26,367
       !   Corporate Advances $8,330
       !   Liquidation Expenses $5,758


CORPORATION COMMENTS AND OIG EVALUATION

On February 20, 2001, the Deputy Director, Franchise and Asset Marketing, DRR, provided a written
response to the draft report. The response is presented in Appendix I of this report.

DRR management agreed to disallow all of the questioned costs in Recommendations 1 and 2, totaling
$441,764. DRR also stated that it is pursuing collection of the disallowed amount through settlement
discussions with PNC. DRR expects the discussions to be completed by June 30, 2001. DRR will
maintain all documents pertaining to the settlement discussions with PNC.

The Corporation’s response to the draft report provided the elements necessary for management
decisions on the report’s recommendations. Therefore, no further response to this report is necessary.
Appendix I presents management’s proposed action on our recommendations and shows that there is a
management decision for each recommendation in this report.

Based on the audit, the OIG will report questioned costs of $441,764 (of which $40,455 is
unsupported) in its Semiannual Report to the Congress.




                                                  10
                                                                                         APPENDIX I
Federal Deposit Insurance Corporation
550 17th Street NW, Washington, DC 20429                                  Division of Resolutions and Receiverships




DATE:                February 20, 2001

TO:                  David Loewenstein
                     Assistant Inspector General

FROM:                James R. Wigand
                     Deputy Director, Franchise and Asset Marketing


SUBJECT:             Response to Draft Report Entitled Review of the Claims Made on the Credit
                     Enhancement Reserve Fund for the Securitization Transaction 1992-03 and 1992-04

The following describes the management actions in response to recommendations contained in the
above referenced report.

1)        Disallow the unallowable costs of $401,309 as detailed below:

          Fire Loss - $141,230
          Potential Representations and Warranty Claims - $124,245
          Principal and Interest Advances - $64,721
          Duplicate Principal and Interest Advances - $45,879
          Liquidation Expenses - $10,294
          Corporate Expenses - $9,344
          Miscellaneous Unallowable Costs - $4,182
          Escrow Expenses - $1,414

          A)         Specific Action Already Taken:

                     MBS Administration concurs with the OIG findings to disallow $401,309 in
                     unallowable costs claimed by PNC and Ryland Mortgage to the Credit Enhancement
                     Fund for each detailed category listed above. We are currently pursuing the
                     collection of the total disallowed amount from PNC Mortgage in accordance with
                     Section 3.04 of the corresponding Pooling and Servicing Agreements.

          B)         Corrective Actions to be Taken Together with Expected Completion Date:

                     MBS Administration has contacted PNC regarding the disallowed amount and it
                     appears generally agrees with disallowed amount. We will follow up with a written
                     request for reimbursement. We expect that collection of the deficiency to be resolved
                     by June 30, 2001.




                                                       11
      C)     Documentation that will confirm the completion of the corrective action.

             DRR will maintain all documents pertaining to the settlement discussion with PNC
             Mortgage.

2)    Disallow the unsupported costs of $40,455 as detailed below:

             Escrow Expenses - $26,367
             Corporate Advances - $8,330
             Liquidation Expenses - $$5,758

      A)     Specific Corrective Action Already Taken:

             MBS Administration concurs with the OIG findings to disallow the $40,455 in
             unsupported costs claimed by PNC and Ryland Mortgage to the Credit Enhancement
             Fund for each detailed category listed above. We are currently pursuing the
             collection of the total unsupported amount from PNC Mortgage in accordance with
             Section 3.04 of the corresponding Pooling and Servicing Agreements.

      B)     Corrective Action to be Taken Together with Expected Completion Date:

             MBS Administration has contacted PNC regarding the disallowed amount and it
             appears generally agrees with disallowed amount. We will follow up with a written
             request for reimbursement. We expect that collection of the deficiency to be resolved
             by June 30, 2001.

      C)     Documentation that will confirm the completion of the corrective action.

             DRR will maintain all documents pertaining to the settlement discussion with PNC.




cc:          Director, Office of Internal Control Management
             Director, Division of Resolutions and Receiverships
             Associate Director for Internal Review, DRR
             Internal Control Liaison, DRR




                                               12
                                                                                                                                                   APPENDIX II

                                               MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the
Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the
response must describe for each recommendation

    !   the specific corrective actions already taken, if applicable;
    !   corrective actions to be taken together with the expected completion dates for their implementation; and
    !   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement.
 In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for
management decisions is based on management’s written response to our report.

                                                                                               Documentation That                       Management
 Rec.                                                                      Expected               Will Confirm          Monetary        Decision: Yes
Number          Corrective Action: Taken or Planned/Status              Completion Date           Final Action          Benefits           or No
                                                                                               Documents pertaining
             The Corporation agreed to disallow $401,309 and                                                           $401,309 in
                                                                                               to settlement
    1        will pursue collection of this amount through                June 30, 2001                                disallowed            Yes
                                                                                               discussions with
             settlement discussions with PNC.                                                                             costs
                                                                                               PNC.

                                                                                               Documents pertaining
             The Corporation agreed to disallow $40,455 and will                                                        $40,455 in
                                                                                               to settlement
    2        pursue collection of this amount through settlement          June 30, 2001                                 disallowed           Yes
                                                                                               discussions with
             discussions with PNC.                                                                                         costs
                                                                                               PNC.




                                                                                 13
